                                Audit of the Postsecondary
                               Education Participants System
                                       Development




                                  FINAL AUDIT REPORT




                                 Audit Control Number 11-70002
                                         February 1999




Our mission is to promote the efficient                          U.S. Department of Education
and effective use of taxpayer dollars                            Office of Inspector General
in support of American education                                    Washington, DC
                             NOTICE

Statements that management practices need improvement, as well as other
 conclusions and recommendations in this report, represent the opinions of
 the Office of Inspector General. Determination of corrective action to be
taken will be made by appropriate Department of Education officials. This
 report may be released to members of the press and general public under
                      the Freedom of Information Act.
Audit of the Postsecondary Education
Participants System Development        Final Report                  ACN 11-70002




                                                                                    3

                                                                                    6
        ED Needs to Accelerate Its Implementation of the Capital Planning
        Provisions of the Clinger-Cohen Act                                         7

        ED Should Take Steps to Assure the Quality and Completeness of PEPS
        Data                                                                11

        Controls Over IT Contracting Need to be Strengthened to
        Address System Transition                                               13

                                                                               15
                                                                               16
                                                                               16


        PEPS Project Development Timeline of Significant Events       Appendix A
        Clinger Cohen Act of 1996 (excerpts)                          Appendix B
        Chief Financial Officer Response                              Appendix C
        Chief Operating Officer for OSFAP Response                    Appendix D
        OIG Comments on ED’s Response                                 Appendix E
Audit of the Postsecondary Education
Participants System Development              Final Report                           ACN 11-70002




We have performed an audit of the Department’s Postsecondary Education Participants System
(PEPS). PEPS is a mission critical system designed to assist the Office of Student Financial
Assistance Programs (OSFAP) in meeting its responsibility to manage and monitor all organizations
that participate in the delivery of the Federal student financial assistance programs. Responsibility
for the development of PEPS is shared between components in OSFAP, the Office of the Chief
Financial Officer (OCFO) and the Office of the Chief Information Officer (OCIO).

The objective of our audit was to assess the Department’s management of the system development
process. Generally, we found that PEPS featured many quality project development attributes, but
encountered delays due to weaknesses in the Department’s capital planning and investment control
process, and suffered from inadequate attention to data integrity during its early years. Despite the
delays and the data concerns, system users have generally expressed the opinion that the PEPS
system will serve the Department well when it is fully implemented.

PEPS Featured Many Quality Project Development Attributes

Many attributes common to successful Information Technology (IT) project management have been
evident with PEPS. Throughout the system development process the PEPS development team
demonstrated stable leadership and a strong commitment to the project goals. PEPS was also one of
the first ED contracts to employ a modular approach to systems development. ED’s development of
PEPS further exemplified successful IT project management through extensive user input at various
stages of the development process. Recent PEPS development efforts have also featured data input
at the point of origination in an effort to enhance data integrity.

Despite the many positive attributes of the PEPS development process, there are three areas where
ED’s processes could be improved. These areas are described in the section below.

ED Needs to Accelerate Its Implementation of the Capital Planning Provisions of the Clinger-
Cohen Act

There have been several delays in the development of PEPS since its inception in May 1992. In our
opinion, many of the conditions that caused the delays were outside the control of the development
team, but would have been manageable through a departmental capital planning and investment
control process. The protracted PEPS development process resulted in additional expense through
the need for workaround routines and extension of Institutional Data System (IDS) operations into
July 1998. During the interim, ED managers lacked easily retrievable information for the Federal
Student Financial Assistance (SFA) program management. Although most planned PEPS

                                                  1
Audit of the Postsecondary Education
Participants System Development               Final Report                           ACN 11-70002

functionality is now in place, the current goal of completion in FY 99 is at risk due to under
funding. Accelerated implementation of the capital planning provisions of the Clinger-Cohen Act
would, in our opinion, help ED to avoid the recurrence of many of the problems which led to delays
with PEPS development, and would strengthen future ED IT development projects.

ED Should Take Steps to Assure the Quality and Completeness of PEPS Data

Early utilization of the PEPS system was hampered by incomplete and, in some instances,
problematic data. ED management has primarily attributed the PEPS data quality concerns to the
transfer of unreliable data from IDS, PEPS’ predecessor system, and to poor data entry practices
during the systems’ early years. Recognizing this limitation, ED has initiated several efforts to
improve the quality of the PEPS data during the past several years. However, to date a thorough
independent data reliability assessment has not been performed. For the Department to obtain the
full benefit from the PEPS system, it should take steps to assure the system’s user community of the
quality and reliability of the PEPS data.

Controls Over IT Contracting Need to be Strengthened to Address System Transition

Project management reported that the PEPS development contract with the original contractor did
not include a provision for the transfer of critical system documentation and source code to the
subsequent contractor. This oversight resulted in a significant delay in PEPS development during
1995 and 1996 and additional cost to the development effort. ED was eventually able to provide the
subsequent contractor with the necessary documentation to resume project development, but lacks
specific guidance to prevent recurrence of transition problems with future development efforts.

Recommendations

We recommend that the Chief Financial Officer and the Acting Chief Information Officer:

1.      accelerate the implementation of the capital planning and investment control provisions of
        the Clinger-Cohen Act;

2.      develop policy to ensure that data integrity is properly addressed as part of the data
        population process for future ED system development efforts; and

3.      issue additional guidance for inclusion in IT system development contracts to address the
        transfer of critical system documentation and source code to a subsequent contractor.

We also recommend that the Chief Operating Officer for OSFAP obtain an independent assessment
(or conduct an in-house assessment) of the quality and completeness of PEPS data.



                                                   2
Audit of the Postsecondary Education
Participants System Development              Final Report                          ACN 11-70002




As authorized by Title IV of the Higher Education Act (HEA) of 1965, as amended, the U.S.
Department of Education (ED) administers several student financial assistance programs
designed to help American students finance the cost of a postsecondary education. Within ED,
the Office of Student Financial Assistance Programs (OSFAP) is responsible for the delivery of
the Federal Student Financial Assistance (SFA) programs, including the monitoring of all other
organizations that assist in the provision of SFA to eligible recipients. These organizations
include postsecondary institutions and other institutions, guaranty agencies, lenders, servicers,
accrediting agencies and state licensing bodies. In order to strengthen the Department’s ability to
properly administer the programs, HEA, as amended, requires the Department to establish and
maintain a central data base on institutional accreditation, eligibility and certification.

Organizational Responsibilities
Within ED, responsibility for development of an Information Technology (IT) system rests with
multiple offices. Among its other responsibilities, the Office of the Chief Information Officer
(OCIO) establishes IT policy and provides IT technical assistance and contracting services to
other ED offices as needed. The ED user offices are responsible for system conceptualization,
requirement definitions and system acceptance.

Information Resource Management and Operations (IRMO) within OCIO is responsible for
ensuring ED’s IT is acquired and information resources are managed in a manner consistent with
the Clinger-Cohen Act of 1996. IRMO plans, develops, directs and maintains ED’s information
architecture and data administration processes. IRMO develops and implements ED policy and
procedures pertaining to all aspects of the planning, design implementation, and utilization of
automated information systems.

Contracts and Purchasing Operations (CPO) within the Office of the Chief Financial Officer
(OCFO) is responsible for all contract administration activities, including development and
award of the PEPS development contract, monitoring of contract deliverables and payment of
contractor billings. As of August 26, 1998, the Department has reported obligations of
$7,347,896 and expenditures of $6,025,257 for contractor development of PEPS.

OSFAP has two offices predominately involved in PEPS development. The Institutional
Participation and Oversight Service (IPOS) is responsible for administering the gatekeeping
activities to ensure only eligible institutions participate in the Department’s SFA programs.
IPOS is responsible for providing user input for PEPS development. Program System Service


                                                3
Audit of the Postsecondary Education
Participants System Development              Final Report                           ACN 11-70002

(PSS) is responsible for oversight of PEPS development by the contractor. PSS staff also
perform the operation functions for the system.

Development History
In 1978, ED developed the Institutional Data System (IDS) to maintain institutional data. Over
the years, the system was modified and expanded in attempts to meet the informational needs of
the Department’s management. However, the system was plagued with inaccurate data,
unfriendly user interfaces, inflexible reporting capabilities and insufficient security and access
controls.

In May 1992, ED decided to replace IDS with the Postsecondary Education Participants System
(PEPS). PEPS was designed to have significantly improved functional and data maintenance
capabilities to more fully meet the needs of system users. PEPS was also designed with
numerous interfaces to exchange data with other Departmental SFA program data bases.

PEPS is being developed primarily in seven functional module segments described as follows:

Eligibility and Certification: This module maintains institutional data used primarily by IPOS
case teams to manage and monitor institutions applying for and participating in the Federal
student financial aid programs. The Eligibility and Certification (E&C) module was the first
module implemented in March 1995. The Department reengineered it and implemented a web-
based electronic version for institutions reapplying for participation in the SFA programs in
December 1997. This capability will be expanded to institutions that are first time applicants for
the 1998-99 fiscal year.

School Program Review: This module maintains institutional data developed by IPOS case
teams during program reviews of institutions participating in the Department’s student financial
aid programs to assess compliance with program requirements. The School Program Review
module was implemented in May 1995.

School Audit Review and Resolution: This module maintains institutional data on required
audit reports submitted by institutions as a condition for continued participation in the student
financial aid programs and the resolution of these audits by IPOS case teams. The School Audit
Review and Resolution module was implemented in February 1997.

School Default Management: This module maintains institutional data on all activities related
to school default rates, primarily for the Federal Family Education Loan Program and the Federal
Direct Loan Program. The School Default Management module was implemented in February
1998.



                                                 4
Audit of the Postsecondary Education
Participants System Development             Final Report                        ACN 11-70002

Closed Schools: This module maintains institutional data on actions taken by the Department for
institutions that have ceased operations and no longer participate in the Department’s student
financial aid programs. The Closed School module was implemented in July 1998.

Guarantor and Lender Oversight Service: This module maintains institutional data developed
by the Guarantor and Lender Oversight Service (GLOS), within OSFAP, during program reviews
of guaranty agencies and lenders. The GLOS module was implemented in July 1998.

Funding Management: This module will maintain institutional data on the level of funding
obtained by schools participating in the student financial aid programs. Due to funding
constraints, the Funding Management module is not scheduled for implementation until later in
fiscal year 1999 at the earliest, depending upon the availability of funds.

Due to the large functional requirements for PEPS, the Department decided to implement PEPS
in phases. Phase One encompassed the initial gatekeeping functions of the E&C and School
Program Review modules upon which the other PEPS modules are being built. ED is currently
completing the additional functional requirements of PEPS development Phase Two. Phase Two
includes enhancements to the School Audit Review and Resolution module, the Closed School
module, the School Default Management module, the GLOS module and the Funding
Management module. As PEPS applications were implemented, duplicative functions
maintained by IDS were removed from operation. IDS was completely shut down on July 24,
1998.




                                               5
Audit of the Postsecondary Education
Participants System Development               Final Report                           ACN 11-70002




In managing the development of PEPS, ED has demonstrated many attributes common to
successful IT project management. In many respects, the project development team has done an
admirable job of keeping the project moving forward and adapting to changes outside of its
control. Throughout the system development process, the PEPS development team (PSS and
contractor staff) demonstrated stable leadership and a strong commitment to the project goals. The
team leader was especially effective in shepherding the process forward and adapting the
development plans for changes necessitated by factors outside the team’s control. Current system
development “best practices” have been exhibited, including the following:

ô       Modular Contracting- PEPS was one of the first ED contracts to employ a modular
        approach to systems development. This approach calls for the acquisition of major
        information systems through a series of phased-in modules, and has been endorsed
        by former Office of Management and Budget (OMB) Director Franklin Raines.

ô       Extensive User Input- From a review of PEPS team documents, we learned that
        joint application development (JAD) sessions were held early on, where the PEPS
        regional, state and headquarters user groups were represented. As system
        requirement, design and database design documents were created, they were
        distributed in draft to the appropriate user groups for review and comment before
        finalization. User groups were also invited to multiple software prototyping
        sessions, to provide them an opportunity to comment on proposed screen and report
        designs. This ongoing interaction helped the development team properly adapt to
        changing user needs.

ô       Data Input at Point of Data Origination- In December 1997, PEPS introduced the
        Electronic Application for Title IV (E-APP) on the world wide web. The E-APP is
        expected to increase the accuracy of OSFAP’s data, as it allows institutions to input
        or update the data necessary for recertification of their eligibility to participate in
        the SFA programs. The PEPS Director has indicated that participating institutions
        have expressed great satisfaction with this enhancement. One user we contacted,
        who is responsible for the input of PEPS data for thirty main campuses, indicated
        that the new system is a great time saver and very user friendly. The GLOS module
        implemented in July 1998 further reduced the need for ED input of user generated
        paper reports. This module allows Guaranty Agencies to directly input the results
        of the program reviews they conduct of participating institutions.


                                                  6
Audit of the Postsecondary Education
Participants System Development              Final Report                         ACN 11-70002

ô       Use of Year 2000 Compliant Software- PEPS was built primarily with software
        and hardware that has been certified to be Year 2000 compliant (i.e., can properly
        process dates that are January 1, 2000 and beyond). Recently, it completed Year
        2000 testing and validation of all implemented modules ahead of schedule and
        under budget. OSFAP management has indicated that additional functions will be
        built to be Year 2000 compliant and will have Year 2000 testing integrated into
        the systems acceptance testing phase of development.

However, despite the many positive attributes noted, development of the PEPS system has taken
over six years and one module is still not complete and enhancement of others is pending. The
modules that have been put into production have been underutilized, due to concerns with the
quality and completeness of the PEPS data. System users have generally expressed the opinion
that PEPS is well designed to meet their needs and that once the system is fully implemented it
will serve the Department well.

The results of our audit work indicate that there are several areas where ED’s processes could be
improved, to help facilitate system development and implementation. In the sections below,
three areas for improvement are presented: 1) the need to accelerate implementation of the capital
planning provisions of the Clinger-Cohen Act; 2) the benefit of obtaining assurance on the
quality and completeness of PEPS data; and 3) the need to strengthen controls over system
transition in ED IT contracting.




Finding No. 1 ED Needs to Accelerate Its Implementation of the
              Capital Planning Provisions of the Clinger-Cohen Act

PEPS development has experienced several delays since its inception in May 1992. In our
opinion, many of the conditions that caused the delays were outside the control of the
development team, but would have been manageable through a departmental capital planning and
investment control process. The protracted PEPS development process resulted in additional
expense through the need for work around routines and extension of IDS operations into July
1998. During most of this interim period, ED managers lacked easily retrievable information for
SFA program management.

Numerous Delays Hinder System Development
The May 1992 decision to develop PEPS was driven by ED’s need to replace the problem-
plagued and costly IDS. From the start, PEPS system development encountered numerous
delays:


                                                7
Audit of the Postsecondary Education
Participants System Development               Final Report                          ACN 11-70002

%       The E&C module was the first part of PEPS put into operation in March 1995. Its
        arrival was delayed approximately six months due to a lack of funding, after the
        development of the business requirements in March 1993. In Fall 1993, the new
        Deputy Assistant Secretary initiated changes to simplify PEPS which resulted in
        further revision to the E&C requirements.

%       PEPS experienced another delay of approximately six months in 1995 due to a
        statutory change which necessitated revision of the institutional application data
        requirements.

%       A change in contractors brought about another six month postponement of new
        development activities from Fall 1995 through Spring 1996. This delay was caused by
        inadequate provisions in the initial PEPS contract which resulted in substantial
        reconstruction of ongoing development work (see “Controls Over ED IT Contracting
        Need to be Strengthened to Address System Transition” below).

%       Under the direction of a new Deputy Assistant Secretary, PEPS was again revamped in
        1996 to accommodate a new OSFAP structure.

%       Subsequent efforts in 1997 to realign the E&C module with IPOS’ work processes and
        to create a web-based eligibility recertification process resulted in the current E&C
        module. The series of events impacting on the E&C module also resulted in
        development delays for the other modules, since they were designed to build upon
        E&C.

Under Funding of Project Significantly Contributes to Delays
Even after considering the varied events noted above, the most significant factor that contributed to
delays in PEPS production appeared to be under funding of the project. The Project Director
indicated that prior to 1997, only $1.5 million per year was allocated for PEPS maintenance and
development. In the Director’s opinion, $3 million per year would have been needed to complete
PEPS within three years. As recent as June 1998, the PEPS team was expecting FY 1999 to be the
year in which PEPS development would be completed.

However, in a June 1998 response to an inquiry about the impact of not continuing the project, the
PEPS development team told ED’s OCIO:

        “If development were stopped at this time, several key functions would be missing-
        Funding Management, Direct Loan School Selection, Accrediting Agency and Single
        Identifier. The loss of these functions would hamper the Department’s efforts to
        obtain complete and reliable information about the organizations ED monitors.”


                                                   8
Audit of the Postsecondary Education
Participants System Development              Final Report                          ACN 11-70002

A follow-on question from the OCIO asked what the impact would be of significantly reducing
or canceling the funding for one year, to which the following response was provided:

        “If the budget for FY 1999 is reduced, then the development of the last modules
        will have to be deferred until FY 2000. PEPS has suffered budget cuts too many
        times in the past years, which has resulted in the development taking twice as
        long as it should have. FY 1998 was originally slated to be the final year, but due
        to budget cuts, the development of several modules had to be deferred to FY 1999.
        This caused a tremendous strain on our users.”

In August 1998, the PEPS Director indicated to us that the team’s fiscal year (FY) 1999 funding
request was for $5.4 million. The actual amount approved for PEPS was $2.5 million. The
Director indicated that the resultant funding deficiency will only allow them to maintain the
status quo. Therefore, it will result in another delay to the completion of PEPS.

PEPS Could Have Benefitted From a Capital Planning and Investment Control Process
In our opinion, the PEPS development process could have benefited greatly by the presence of a
capital planning and investment control process as called for in Section 5122 of the Clinger-
Cohen Act (CCA)[See Appendix B]. In fairness to ED, the CCA was not effective until August
1996 - long after many of the PEPS delays were experienced. However, the circumstances
encountered by PEPS point to the benefits to be derived by the implementation of such a process,
as follows:

!       Linkage of Strategic Planning, Budget and IT Investment Decisions
        A CCA capital planning and investment control process would provide a sound basis for
        linking strategic planning, budget and IT investment decisions. As continued funding for
        PEPS was considered, its importance in achieving ED’s strategic goals and objectives,
        such as Objective 3.3 (Postsecondary student aid delivery and program management is
        efficient, financially sound and customer responsive) of the current strategic plan would
        be carefully weighed. Moreover, the cost benefit analysis developed as part of the
        process would provide the decision makers with information necessary to make an
        informed financial decision. They would be able to more accurately determine the
        consequence of not fully funding a specific IT investment that is being considered. In the
        case of PEPS, the cost of required work around routines and IDS maintenance (up to $1
        million annually) would be factored into the decision process.

        This linkage of planning, budgeting and decision-making would also provide for an
        annual review of the performance of investments approved during the prior budget cycle.
        Therefore, management would be able to direct funding to where it would have the
        biggest impact, and take corrective action where underachievement of prior IT
        investments warranted such action.

                                                9
Audit of the Postsecondary Education
Participants System Development               Final Report                          ACN 11-70002

!       Alignment of Proposed IT Investments With Business Processes
        A CCA capital planning and investment control process would also provide a means to
        ensure that proposed IT investments are aligned with business processes, and that the
        business processes are reviewed and, if necessary, reengineered prior to the application of
        an IT solution. With PEPS this would have allowed ED to avoid inefficient requirement
        changes to the E&C module, and would have created an open forum where the impact of
        other proposed changes to the structure of the project would be discussed prior to being
        pursued.

!       Documentation of Project Decisions and Current Year Goals
        Inherent in a CCA capital planning and investment control process is a means to
        document the basis for project decisions and current year goals for each approved project.
        This information should prove to enhance project accountability, lead to shorter
        development cycles and facilitate the stability of the IT investment process in the event of
        turnover in key staff positions.

In March 1998, we previously reported that the OCIO had not “finalized and implemented a
capital planning and investment control process which maximizes value and manages risks of
information technology”[The Status of Education’s Implementation of the Clinger-Cohen Act
(Audit Control Number A11-70007)]. In our recommendation to implement such a process, we
pointed out that the solution should “clearly assign responsibilities related to acquisition,
monitoring, and termination of all IT projects.”

Earlier in March 1998, as also stated in our Clinger-Cohen report, the OCIO indicated that it had
selected PEPS to be a pilot for its draft capital planning process. In April, the PEPS Project
Director received 30 questions (two of which are noted on the previous page) to respond to as
part of the pilot process. Only one of the 30 questions addressed the project’s “cost/benefit
analysis”. It did not include any guidance on how this analysis was to be performed, what
could/should be included, or what period of time should be covered by the analysis. The PEPS
team responded that “no written cost/benefit analysis exists.” As of September 1998, the PEPS
Director had not received a response or further guidance from OCIO.

In a follow-up contact with the OCIO, we were informed that the pilot project was put on hold
due to leadership changes and other priorities. In the interim, a more simplified process requiring
less input from the ED project managers is being examined. Our review of a completed copy of
the proposed “simplified form” for another mission critical ED IT system noted that it too stated
“a full cost/benefits analysis was not completed”.

In our opinion, a uniform process for generating such an analysis and developing accurate input
from the Department’s Information Technology Investment Review Board (ITIRB) for each and
every proposed IT investment is critical to the proper implementation of a capital planning and

                                                10
Audit of the Postsecondary Education
Participants System Development              Final Report                          ACN 11-70002

investment control process that is consistent with both the CCA and “Raines Rules”
(implementing instructions from OMB). The proper implementation of a capital planning and
investment control process will ultimately benefit all of ED’s IT projects.


Finding No. 2 ED Should Take Steps to Assure the Quality and
              Completeness of PEPS Data

Early utilization of the PEPS system was hampered by incomplete and, in some instances,
problematic data. ED management has primarily attributed the PEPS data quality concerns to the
transfer of unreliable data from the IDS, PEPS’ predecessor system, and to poor data entry
practices during the systems’ early years. Recognizing this limitation, ED has initiated several
efforts to improve the quality of the PEPS data during the past several years. However, as of
August 1998, a thorough independent data reliability assessment has not been performed.

The Government Performance and Results Act of 1993 (GPRA) underscored the need for
complete and accurate data. The purpose of GPRA was (in part) to provide information about
program results and service quality to Federal managers to help them improve service delivery,
and to congressional leaders to assist them in their decision making responsibilities. Accurate
and complete PEPS data is clearly instrumental to the achievement of ED’s strategic plan GPRA
objectives and its desired customer satisfaction.

Previous OIG Concerns Over Data Accuracy
Concerns with the accuracy and completeness of the data in IDS surfaced prior to the start of
PEPS development. In a November 1989 Management Improvement Report (#90-1), ED’s OIG
identified concerns with the accuracy of data in the predecessor IDS certification file, as well as
the completeness of the data in the eligibility, program review and audit review files. Each of the
three files appeared to have thousands of errors or omissions. Similar data concerns were
reported by the OIG on several other occasions.

In a memorandum to IPOS management dated July 31, 1997, we noted the inconsistent treatment
and reporting of data entered into the PEPS School Program Review module data base. The
memorandum identified numerous instances (39 of 100 records reviewed) where PEPS reported
that IPOS personnel had performed an institutional program review even though a site visit was
not made. Further, for the 61 institutions visited, IPOS did not always indicate whether the
reviews were full or limited in scope.

Concerns were also communicated in August 1997 about the completeness of the Department’s
data on school audits and audit resolution activity (SFA Action Memorandum No. 97-06). The
memorandum identified that IPOS had not taken any action against 1,479 participating


                                                11
Audit of the Postsecondary Education
Participants System Development              Final Report                          ACN 11-70002

institutions identified as not having submitted an audit report due to concern with the accuracy of
the audit tracking data. The memorandum also noted issues related to audits received and not
entered into the database and a lack of follow-up efforts to obtain the missing audits.

OSFAP Initiatives to Improve Data Quality
OSFAP management recognized the importance of obtaining a high degree of reliability for
PEPS data. With this goal in mind, they used data conversion software to edit and transfer data
to the PEPS’ E&C database during the migration of data from IDS to PEPS. However, an
independent verification was never performed to test the accuracy of the data. Within the past
few years, as data quality concerns continued to surface, OSFAP management embarked on a
more concerted effort to correct erroneous data records and populate missing data in the E&C,
School Program Review and School Audit Review and Resolution modules.

To improve data in the E&C module, Program Systems Service (PSS) led a two phase effort to
compare the data in PEPS to the data reported on original school applications submitted to the
Department. PSS first attempted to correct and verify the critical data elements for all domestic
institutions, then repeated the procedure for secondary data elements. This process was
completed in May 1998.

Project management reports that the new web-based E-APP recertification process, although just
recently started, has also helped to improve the quality of the data in the E&C module. As
institutions submit their recertification applications they are submitting the corrections to a
pending file in PEPS where the data is later reviewed, verified and, if accurate, accepted by the
Department.

The PEPS team has gained further opportunity to improve the quality of PEPS data through the
National Student Loan Data System (NSLDS ) front-end edit checks. When PEPS school data is
used to update (transferred to) the NSLDS, an error report is produced for any data that cannot be
received (data record fails the conversion software edit checks). These reports are then used to
identify and correct data errors in PEPS.

In addition, management has attributed a share of the PEPS data reliability problems to poor data
entry procedures, as indicated above. To address these problems, IPOS has provided data entry
personnel with additional guidance and training. They have also attempted to clarify the
definitions of the data elements tracked in PEPS where users have indicated confusion or internal
data analyses have identified inconsistent interpretations.

Based on the combination of the data clean-up efforts and the greater accuracy of the electronic
recertification application, OSFAP management believes the data in the E&C, School Program
Review, and School Audit Review and Resolution modules are sufficiently accurate for use by
the user community. Although project management indicates that PEPS data quality has been

                                                12
Audit of the Postsecondary Education
Participants System Development              Final Report                           ACN 11-70002

significantly improved, an independent assessment of the reliability of key data elements in each
PEPS module has not been performed. IPOS management drafted guidance in September 1997
for assessing the reliability of system data, however, to date an internal assessment process has
not been implemented and the accuracy and completeness of the PEPS databases has not been
independently assessed.

For the Department to obtain the full benefit from the PEPS system, it should take steps to assure
the system’s user community of the quality and reliability of the PEPS data. It is also evident
that ED should take steps to ensure that data integrity is addressed as part of the data population
process for future system development efforts.


Finding No. 3 Controls Over IT Contracting Need to be Strengthened
              to Address System Transition

Project management reported that the PEPS development contract with the original contractor
did not include a provision for the transfer of critical system documentation and source code to
the subsequent contractor. This oversight resulted in a significant delay in PEPS development
during 1995/1996. At additional time and expense, PSS was eventually able to provide the
subsequent contractor with the necessary documentation to resume project development.

OMB Circular A-123, as revised, requires agencies to develop and implement cost-effective
management controls. Management controls are defined as organization, policies, and
procedures used by agencies to reasonably ensure that programs and resources are protected from
waste, fraud and mismanagement.
As part of our audit procedures, we reviewed the current contract for the development of PEPS
and verified that it included provisions for the transfer of system documentation and source code
to any subsequent contractor. However, discussions with other Department officials revealed
that policies and procedures do not exist to ensure the appropriate provisions are included in all
contracts for IT system development. Therefore, controls over the awarding of IT system
contracts need to be strengthened to address system transition, which in turn will help protect the
interest of the Federal government.




                                                13
Audit of the Postsecondary Education
Participants System Development               Final Report                           ACN 11-70002




We recommend that the Chief Financial Officer and the Acting Chief Information Officer:

1.      accelerate the implementation of the capital planning and investment control provisions
        of the Clinger-Cohen Act, including review and amendment of ED’s current
        implementation plans to provide for the submission and comparative review of cost
        benefit analyses as part of the evaluation of all significant IT investment alternatives;

2.      develop policy to ensure that data integrity is properly addressed as part of the data
        population process for future ED system development efforts; and

3.      issue additional guidance for inclusion in IT system development contracts to address the
        transfer of critical system documentation and source code to a subsequent contractor.
        This guidance should also address the ownership rights of the system upon acceptance by
        the Department and include recommended language for such provisions.

We also recommend that the Chief Operating Officer for OSFAP, at his option, obtain an
independent assessment or conduct a comprehensive in-house assessment of the quality and
completeness of PEPS data. We also recommend that a plan be developed to have all identified
errors or omissions corrected within six months of the issuance of the assessment report.




                                                 14
Audit of the Postsecondary Education
Participants System Development              Final Report                          ACN 11-70002




The objective of our audit was to assess the Department’s management of the Postsecondary
Education Participants System development. Accordingly, our work focused on how the
Department was developing PEPS to meet the needs of system users. We did not perform an
independent assessment of the accuracy and completeness of the data in PEPS data bases. We also
did not assess the efficiency or effectiveness of technical solutions implemented by the PEPS
developer.

To accomplish our objective, we interviewed Department officials responsible for managing PEPS
development, performing PEPS data entry functions and defining system requirements of PEPS
applications. We also reviewed system documentation and project cost information. We
judgementally reviewed selected system documentation files detailing the system development work
completed during the period March 1993 through April 1997. In addressing the data population
steps in the PEPS development process, we built our work upon prior audit work performed by OIG
staff. We then made inquiries of the appropriate Department officials and reviewed the
Department’s plans to ensure the accuracy of PEPS data.

We conducted our fieldwork at OSFAP, OCFO and OCIO offices in Washington, DC from April
15, 1997 through January 6, 1998. Additional work was performed in August and September 1998
and in February 1999. Our audit was conducted in accordance with generally accepted government
auditing standards applicable to the scope of our review.




As part of our review, we assessed the system of management controls, policies, procedures and
practices applicable to the Department’s management of the PEPS development process. Our
assessment was performed to determine the level of control risk for determining the nature, timing
and extent of our substantive tests to accomplish the audit objectives. For purposes of this report,
we limited our review to the assessment of the significant controls over project development.

Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all significant weaknesses in the management controls.
However, based upon current criteria, we would consider the absence of a capital planning and
investment control process to be a significant weakness in the Department’s management controls
over the IT system development process. It is important to note though, that such a process was not

                                                 15
Audit of the Postsecondary Education
Participants System Development             Final Report                         ACN 11-70002

required until the effective date of the Clinger-Cohen Act in August 1996. We did not become
aware of any other significant weaknesses during the course of our audit. This weakness and its
effect are fully discussed in the AUDIT RESULTS section of this report.




                                                16
                                                      Appendix A

                       PEPS Project Development
                     Timeline of Significant Events
       External                                            Internal

                                                  ED management decides to
                                    May 92        replace IDS with newly
                                                  conceived PEPS.


                                    Oct 92        Department contracts with AMS
                                                  to begin PEPS development.

                                                  ED management desides to place
                                    Dec 93        PEPS on an accelerated
                                                  development schedule [Results in
                                                  first revision of E&C module].

                                    Mar 95        E&C module is the first
                                                  application to be placed in
                                                  operation.

                                    May 95        School Program Review module
                                                  implemented.

OMB approves new school
application required by HEA 92      Aug 95        Department contracts with CBMI
(Requires second revision of E&C                  to continue PEPS development,
module).                                          but progress is delayed because
                                                  original contract does not require
                                    Sep 95        the transfer of critical system
                                                  documentation and source code.
                                                  OPE management revises the
                                    Dec 95        school recertification application
                                                  (Results in third revision to E&C
                                                  module).

                                    Nov 96        IPOS reorganization to case
                                                  management teams results in
                                                  misalignment with PEPS functionality.


                                    Feb 97        School Audit Review and Resolution
                                                  module was implemented.

                                                  Electronic application function
                                    Dec 97        designed to improve the data
                                                  entry process for the E&C module
                                                  is made operational.

                                    Feb 98        School Default Management module
                                                  was implemented.


                                                  Closed School module was
                                    Jul 98
                                                  implemented.



                                    Jul 98        GLOS module was implemented.
Audit of the Postsecondary Education                                                                                         Appendix B
Participants System Development                                     Final Report                                             ACN 11-70002



                                                Clinger-Cohen Act of 1996
                                                          Subtitle C-Executive Agencies

SEC. 5121. RESPONSIBILITIES

In fulfilling the responsibilities assigned under chapter 35 of title 44, United States Code, the head of each executive agency shall comply with
this subtitle with respect to the specific matters covered by this subtitle.

SEC. 5122. CAPITAL PLANNING AND INVESTMENT CONTROL.

    (a) DESIGN OF PROCESS.-In fulfilling the responsibilities assigned under section 3506(h) of title 44, United States Code, the head of each
executive agency shall design and implement in the executive agency a process for maximizing the value and assessing and managing the risks
of the information technology acquisitions of the executive agency.

   (b) CONTENT OF PROCESS.-The process of an executive agency shall-
             (1) provide for the selection of information technology investments to be made by the executive agency, the management of such
          investments, and the evaluation of the results of such investments;
             (2) be integrated with the processes for making budget, financial, and program management decisions within the executive
          agency;
             (3) include minimum criteria to be applied in considering whether to undertake a particular investment in information systems,
          including criteria related to the quantitatively expressed projected net, risk-adjusted return on investment and specific quantitative
          and qualitative criteria for comparing and prioritizing alternative information systems investment projects;
             (4) provide for identifying information systems investments that would result in shared benefits or costs for other Federal agencies
          or State or local governments;
             (5) provide for identifying for a proposed investment quantifiable measurements for determining the net benefits and risks of the
          investment; and
             (6) provide the means for senior management personnel of the executive agency to obtain timely information regarding the
          progress of an investment in an information system, including a system of milestones for measuring progress, on an independently
          verifiable basis, in terms of cost, capability of the system to meet specified requirements, timeliness, and quality.

SEC. 5123. PERFORMANCE AND RESULTS-BASED MANAGEMENT.

           In fulfilling the responsibilities under section 3506(h) of title 44, United States Code, the head of an executive agency shall-
               (1) establish goals for improving the efficiency and effectiveness of agency operations and, as appropriate, the delivery of services
           to the public through the effective use of information technology;
               (2) prepare an annual report, to be included in the executive agency’s budget submission to Congress, on the progress in achieving
           the goals;
               (3) ensure that performance measurements are prescribed for information technology used by or to be acquired for, the executive
           agency and that the performance measurements measure how well the information technology supports programs of the executive
           agency;
               (4) where comparable processes and organizations in the public or private sectors exist, quantitatively benchmark agency process
           performance against such processes in terms of cost, speed, productivity, and quality of outputs and outcomes;
               (5) analyze the missions of the executive agency and, based on the analysis, revise the executive agency’s mission-related
           processes and administrative processes as appropriate before making significant investments in information technology that is to be
           used in support of the performance of those missions; and
               (6) ensure that the information security policies, procedures, and practices of the executive agency are adequate.
Audit of the Postsecondary Education                                                                                       Appendix B
Participants System Development                                   Final Report                                             ACN 11-70002


                             TITLE LII-PROCESS FOR ACQUISITIONS OF INFORMATION TECHNOLOGY

SEC.5202 INCREMENTAL ACQUISITION OF INFORMATION TECHNOLOGY.

  (a) POLICY.-The Office of Federal Procurement Policy Act (41 U.S.C. et seq.) is amended by adding at the end the following new section:

“SEC.35. MODULAR CONTRACTING FOR INFORMATION TECHNOLOGY.

   “(a) IN GENERAL.-The head of an executive agency should, to the maximum extent practicable, use modular contracting for an acquisition
of a major system of information technology.
   “(b) MODULAR CONTRACTING DESCRIBED.-Under modular contracting, an executive agency’s need for a system is satisfied in
successive acquisitions of interoperable increments. Each increment complies with common or commercially accepted standards applicable to
information technology so that the increments are compatible with other increments of information technology comprising the system.

  “(c) IMPLEMENTATION.-The Federal Acquisition Regulation shall provide that-
            “(1) under the modular contracting process, an acquisition of a major system of information technology may be divided into
         several smaller acquisition increments that-
                        “(A) are easier to manage individually than would be one comprehensive acquisition;
                        “(B) address complex information technology objectives incrementally in order to enhance the likelihood of achieving
                     workable solutions for attainment of those objectives;
                        “(C) provide for delivery, implementation, and testing of workable systems or solutions in discrete increments each of
                     which comprises a system or solution that is not dependent on any subsequent increment in order to perform its principal
                     functions; and
                        “(D) provide an opportunity for subsequent increments of the acquisition to take advantage of any evolution in
                     technology or needs that occur during conduct of the earlier increments;
            “(2) a contract for an increment of an information technology acquisition should, to the maximum extent practicable, be awarded
         within 180 days after the date on which the solicitation is issued and, if the contract for that increment cannot be awarded within such
         period, the increment should be considered for cancellation; and
            “(3) the information technology provided for in a contract for acquisition of information technology should be delivered within 18
         months after the date on which the solicitation resulting in award of the contract was issued.”.
Audit of the Postsecondary Education                  Appendix C
Participants System Development        Final Report   ACN 11-70002
Audit of the Postsecondary Education                  Appendix D
Participants System Development        Final Report   ACN 11-70002
Audit of the Postsecondary Education                  Appendix D
Participants System Development        Final Report   ACN 11-70002
Audit of the Postsecondary Education                  Appendix D
Participants System Development        Final Report   ACN 11-70002
Audit of the Postsecondary Education                                               Appendix E
Participants System Development              Final Report                          ACN 11-70002




As noted in the Background section of our report, the responsibility for development of an IT
system rests with multiple offices within the Department. As appropriate at the time of our draft
report issuance, we directed our recommendations to the senior officer with primary
responsibility for managing the Department functions affected by the findings. Since that time,
two significant organizational changes have taken place: 1) OSFAP became the government’s
first Performance Based Organization (PBO) under the direction of a Chief Operating Officer
(COO) reporting to the Deputy Secretary, and 2) The Office of the Chief Financial and Chief
Information Officer was separated into two distinct offices with the selection of a Chief
Information Officer (CIO) pending. Given the new structure, we anticipate that the three offices
will need to collaborate to ensure a consistent approach is used to address the first three report
recommendations. In response to the draft of this report, the Chief Financial Officer and the
Acting Chief Information Officer expressed his general agreement [reprinted in Appendix C]
with the first three findings and recommendations. Comments from the Chief Operating Officer
for OSFAP [reprinted in Appendix D] expressed his disagreement with our recommendation for
the completion of an independent assessment of the quality and completeness of PEPS data.

Comments on the OCFO and OCIO Response

We believe the planned actions detailed in the response, if properly implemented, will achieve
the objectives sought by our recommendations.

Comments on the OSFAP Response

We agree with OSFAP’s opinion that ensuring the accuracy and completeness of NSLDS data is
a more pressing concern than independently assessing the quality of PEPS data. We are also
confident that the steps taken to incorporate PEPS data review into OSFAP’s business processes
have served to improve PEPS data quality. However, we are still dismayed at OSFAP’s
reluctance to perform an overall, independent, data reliability assessment of PEPS.

The maintenance of quality IT system data and the controls and procedures needed to maintain
quality data are the responsibility of management. Therefore, it is incumbent upon OSFAP to
periodically test the quality and completeness of PEPS data to ensure that the high degree of
reliance placed on this mission-critical system is not misplaced. Such assessments are especially
important given the requirements for performance measurement (with reliable performance data)
mandated by the Government Performance and Results Act.

As stated in our report, PEPS is a mission critical system designed to maintain data for the
purpose of monitoring the delivery of SFA funds to eligible students. To date, the Department
has spent over six million dollars for contractor development of PEPS. Since the production of
useful data was the main reason system development was initiated, we believe an appropriate
Audit of the Postsecondary Education                                                Appendix E
Participants System Development               Final Report                          ACN 11-70002

amount of resources should be expended to provide assurance that a high degree of data accuracy
and completeness has been achieved. We believe an independent reliability assessment of PEPS
data could make this determination at a small percentage of the system development costs.

In responding to our draft report, OSFAP asserted that our report did not identify current
problems with PEPS data quality. Conversely, we do not view the OSFAP response as providing
adequate assurance that current PEPS data is accurate and complete. While considerable
attention was devoted to explaining the steps being performed to address identified problems, the
procedures mentioned do not include user surveys, positive confirmations or external data
matches to establish that all data errors have been identified and the information in the system is
complete. We were also unable to determine the effectiveness of some of the steps listed because
documentation to support the data clean-up efforts was not always maintained.

In an effort to obtain an independent perspective, we contacted five PEPS users from the SFA
community (outside the Department) to learn of their recent experiences in using PEPS data.
Based on our very limited survey, respondents indicated their agreement that the quality and
completeness of the PEPS data has been improved significantly. However, the respondents noted
discrepancies remained in some data categories. For example, one of the five respondents noted
errors remained in the PEPS “school program length” data field and another identified an error in
the “closed schools” data field (i.e., closed school was shown as active and eligible for
participation in SFA programs).

Our intention in making the above observations is not to diminish the significant efforts that have
been initiated by the Department. To the contrary, we find them commendable, especially efforts
to provide for data entry at the point of origination for the institutional recertification process.
Our concern is that the efforts fall short of providing assurance that the PEPS data being relied
upon to manage the SFA programs is reliable for all intended purposes. We recognize, however,
that other priorities and budget constraints could limit the Department’s ability to contract for an
independent assessment at this time. Therefore, we are amending our recommendation to
provide the COO for OSFAP with the option to immediately implement plans to conduct a
comprehensive in-house assessment of the quality and completeness of PEPS data. We also
recommend that a plan be developed to have all identified errors or omissions corrected within
six months of the issuance of the assessment report.
Audit of the Postsecondary Education
Participants System Development              Final Report                   ACN 11-70002


                                       Distribution List
Primary Action Official                                                     No. of Copies

        Greg Woods, Chief Operating Officer                                       4
        Office of Student Financial Assistance Programs
        U.S. Department of Education
        ROB#3, Room 4004
        7th and D Streets, SW
        Washington, DC 20202-2500

Collateral Action Official

        Donald Rappaport, Chief Financial Officer                                  4
         and Chief Information Officer
        FOB#6, Room 4E313
        400 Maryland Avenue, SW
        Washington, DC 20202

Other ED Offices

        Director, Accounting and Financial Management Service                     1
        Service Director, Program Systems Service                                 1
        Director, Institutional Participation Oversight Service                   1
        Director, Contracts and Purchasing Operations                             1
        Office of General Counsel                                                 1
        Office of Public Affairs                                                  1
        Post Audit Group                                                          1

        Office of Inspector General
                Inspector General                                                 1
                Deputy Inspector General                                          1
                Counsel to the Inspector General                                  1
                Assistant Inspector General for Audit                             1
                Deputy Assistant Inspector General for Audit                      1
                Assistant Inspector General for Operations - Eastern Area         1
                Assistant Inspector General for Operations - Western Area         1
                Director, Student Financial Assistance Programs,                  1
                   Advisory and Assistance Services
                Area Audit Managers                                              10
                Planning and Management Services                                  2
